No. 19-983
IN THE
Supreme Court of the United States
COLLEEN REILLY and BECKY BITER,

Petitioners
v.

CITY OF HARRISBURG, HARRISBURG CITY
COUNCIL, and ERIC PAPENFUSE, in his official
capacity as Mayor of Harrisburg,

Respondents

CERTIFICATION OF WORD COUNT
As required by Supreme Court Rule 33.1(h), I certify that the Brief in
Opposition to Petition for Writ of Certiorari contains 6,087 words, excluding those
parts of the document that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Respectfully submitted,

pack 2e 2020 Cae

MAUREEN M. MCBRIDE,
(Counsel of Record)
JAMES C. SARGENT
Lamb McErlane PC

24 East Market Street
West Chester, PA 19312
(610) 430-8000

Counsel for Respondents
